     Department of Homeland Security

     ��������������������������


    U.S. Immigration and Customs Enforcement’s 

         Management Letter for FY 2013 DHS 

             Financial Statements Audit 





OIG-14-66                                 April 2014

                          OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security
                              Washington, DC 20528 / www.oig.dhs.gov


                                       APR 21 2014

MEMORANDUM FOR:               Radha Sekar
                              Chief Financial Officer
                              U.S. Immigration and Customs Enforcement

FROM:                         Anne L. Richards
                              Assistant Inspector General for Audits

SUBJECT:                      U.S. Immigration and Customs Enforcement’s
                              Management Letter for FY 2013 DHS Financial Statements
                              Audit

Attached for your information is our final report, U.S. Immigration and Customs
Enforcement’s Management Letter for FY 2013 DHS Financial Statements Audit. This
report contains five comments and five recommendations related to internal control
deficiencies that were not required to be reported in the Independent Auditors’ Report
on DHS’ FY 2013 Financial Statements and Internal Control over Financial Reporting.
Internal control deficiencies which are considered significant deficiencies were reported,
as required, in the Independent Auditors’ Report, dated December 11, 2013, which was
included in the Department of Homeland Security’s (DHS) fiscal year (FY) 2013 Agency
Financial Report. We do not require management’s response to the recommendations.

We contracted with the independent public accounting firm KPMG LLP (KPMG) to
conduct the audit of the DHS’ FY 2013 financial statements and internal control over
financial reporting. The contract required that KPMG perform its audit according to
generally accepted government auditing standards and guidance from the Office of
Management and Budget and the Government Accountability Office. KPMG is
responsible for the attached management letter dated January 15, 2014, and the
conclusions expressed in it.

Please call me with any questions, or your staff may contact Mark Bell, Deputy Assistant
Inspector General for Audits, at (202) 254-4100.

Attachment
                                 KPMG LLP
                                 Suite 12000
                                 1801 K Street, NW
                                 Washington, DC 20006



January 15, 2014


Office of Inspector General
U.S. Department of Homeland Security, and
Chief Financial Officer
U.S. Department of Homeland Security, U.S. Immigration and Customs Enforcement
Washington, DC

Ladies and Gentlemen:

We have audited the financial statements of the U.S. Department of Homeland Security (DHS or
Department) for the year ended September 30, 2013 (referred to herein as the “fiscal year (FY) 2013
financial statements”), and have issued our report thereon dated December 11, 2013. In planning and
performing our audit of the financial statements of DHS, in accordance with auditing standards generally
accepted in the United States of America and Government Auditing Standards, we considered internal
control over financial reporting (internal control) as a basis for designing our auditing procedures for the
purpose of expressing our opinion on the financial statements. In conjunction with our audit of the
financial statements, we also performed an audit of internal control over financial reporting in accordance
with attestation standards established by the American Institute of Certified Public Accountants.
U.S. Immigration and Customs Enforcement (ICE) is a component of DHS. During our audit, we noted
certain matters involving internal control and other operational matters, related to ICE, that are presented
for your consideration. These comments and recommendations, all of which have been discussed with the
appropriate members of management, are intended to improve internal control or result in other operating
efficiencies. These matters are summarized in the Table of Financial Management Comments on the
following pages. The disposition of each internal control deficiency identified during our FY 2013 audit –
as either reported in our Independent Auditors’ Report, or herein – is presented in Appendix A. Our
findings related to information technology systems have been presented in a separate letter to the DHS
Office of Inspector General, the ICE Chief Information Officer, and Chief Financial Officer.
Our audit procedures are designed primarily to enable us to form an opinion on the financial statements
and on the effectiveness of internal control over financial reporting, and therefore may not bring to light all
weaknesses in policies or procedures that may exist. We aim, however, to use our knowledge of ICE’s
organization gained during our work to make comments and suggestions that we hope will be useful to
you.
We would be pleased to discuss these comments and recommendations with you at any time.
The purpose of this letter is solely to describe comments and recommendations intended to improve
internal control or result in other operating efficiencies. Accordingly, this letter is not suitable for any other
purpose.

Very truly yours,




                                 KPMG LLP is a Delaware limited liability partnership,
                                 the U.S. member firm of KPMG International Cooperative
                                 (“KPMG International”), a Swiss entity.
                             U.S. Immigration and Customs Enforcement
                             Table of Financial Management Comments

                                         September 30, 2013





TABLE OF FINANCIAL MANAGEMENT COMMENTS (FMC)

Comment
Reference   Subject                                                                      Page

FMC 13-01   Unfunded Leave                                                                 2
FMC 13-02   Imputed Costs – General Journal Entry                                          2
FMC 13-03   Payroll Accrual                                                                2
FMC 13-04   Untimely Review of Form Office of Government Ethics (OGE)-278 and OGE-450      2
FMC 13-05   Approval of Personnel Actions                                                  3

                                           APPENDIX

Appendix    Subject                                                                       Page

A           Crosswalk – Financial Management Comments to Active Notices of Finding and     4
            Recommendation (NFRs)




                                                   1

                              U.S. Immigration and Customs Enforcement
                                   Financial Management Comments

                                         September 30, 2013




FMC 13-01 – Unfunded Leave (Notice of Finding and Recommendation (NFR) No. U.S. Immigration
and Customs Enforcement (ICE) 13-02)

       ICE lacked adequate policies and procedures to validate the National Finance Center data used to
       generate the unfunded leave accrual prior to posting the accrual in the Federal Financial
       Management System.

       Recommendation:
       We recommend that ICE develop policies and procedures, including supervisory reviews over
       underlying data used to record the unfunded leave accrual to ensure the accuracy of the accrual.

FMC 13-02 – Imputed Costs – General Journal Entry (NFR No. ICE 13-03)

       Controls were not operating effectively to accurately calculate the imputed costs for pension
       benefits based on the approved cost factors for calculating imputed costs as determined by the
       Office of Personnel Management.
       Recommendation:
       We recommend that ICE enhance controls and procedures to accurately calculate imputed costs
       for pension benefits based on updated and approved cost factors prior to posting adjustments into
       the financial system.

FMC 13-03 – Payroll Accrual (NFR No. ICE 13-04)

       Controls were not fully effective to ensure the accuracy of the payroll accrual as of March 31,
       2013. Specifically, we noted that the Continuing Resolution impacted the end of month
       accounting due to the timing of authorization and apportionment.

       Recommendation:
       We recommend that ICE reinforce existing policies and procedures over the payroll accrual
       process to ensure consistent application of policies and accuracy of the payroll accrual during
       continuing resolution periods.

FMC 13-04 – Untimely Review of Form Office of Government Ethics (OGE)-278 and OGE-450
(NFR No. ICE 13-05)

       Controls over the confidential disclosure (OGE–450) forms were not fully effective:
       •	 We found that one individual selected for testwork separated from the agency prior to the
          filing period; however, that employee was included on the listing of individuals required to
          file the OGE-450 form.
       •	 One individual selected for testwork had not completed the form until the time of
          testwork. Additionally, we note as of the date of our testwork not all forms had been received
          by the Office of Ethics.




                                                    2

                             U.S. Immigration and Customs Enforcement
                             Table of Financial Management Comments

                                         September 30, 2013




       •	 One sample item was filed by the individual after the February 15, 2013 deadline.
       •	 For all employees selected for testwork, the supervisor review was completed within the 60
          day requirement; however, we noted for 11 employees selected for testwork, the certification
          by the Office of Ethics was not completed until August 2013. Additionally, at the time of
          testwork the certification process had not been completed for all fiscal year 2013 forms.

       Controls were not effective to ensure review by the Office of Ethics was completed within 30
       days of filing by the individual for OGE-278s. Specifically, for two sample items selected we
       note the certification by the Office of Ethics was not completed within 60 days.
       Recommendation:
       We recommend that ICE implement a centralized system to identify individuals required to file
       financial disclosure forms, monitor progress and review of the forms from the filer to the
       supervisor, and track receipt of the forms in the Office of Ethics.

FMC 13-05 – Approval of Personnel Actions (NFR No. ICE 13-07)

       Controls were not implemented for the entire fiscal year to ensure that proper documentation is
       maintained to support approval of Career Ladder Promotion personnel actions, prior to the action
       being processed.

       Recommendation:
       We recommend that ICE develop and implement controls to ensure proper documentation is
       maintained supporting approval of each personnel Career Ladder Promotion action.




                                                   3

                                                                                                              Appendix A
                                 U.S. Immigration and Customs Enforcement
                         Crosswalk – Financial Management Comments to Active NFRs
                                             September 30, 2013


                                                                                                   Disposition1
                                                                                                  IAR                 FMC
              NFR
Component                Description                                                    MW         SD        NC       No.
              No.
ICE           13-01      General Property, Plant, and Equipment Controls                  A
ICE           13-02      Unfunded Leave                                                                              13-01
ICE           13-03      Imputed Costs – General Journal Entry                                                       13-02
ICE           13-04      Payroll Accrual                                                                             13-03
                         Untimely Review of Form Office of Government Ethics
ICE           13-05                                                                                                  13-04
                         (OGE)-278 and OGE-450
                         General Property, Plant, and Equipment Additions and
ICE           13-06                                                                       A
                         Deletions
ICE           13-07      Approval of Personnel Actions                                                               13-05
ICE           13-08      Internal Use Software                                            A
ICE           13-09      Invoice Approval                                                 A
ICE           13-10      Undelivered Order Analysis                                       D
                         Federal Financial Management System to Prism
ICE           13-11                                                                       D
                         Reconciliation
                         Funds Management and Untimely Recording of Obligation
ICE           13-12                                                                       D
                         Activity to the General Ledger
ICE           13-13      Financial Reporting                                              A
ICE           13-14      U.S. Government Accountability Office Checklist                  A
ICE           13-15      Invoice Receipt                                                  A
ICE           13-16      Entity Level Controls                                                      E
ICE           13-17      Federal Financial Management Improvement Act of 1996             A                   J
                         Completeness of the Lease Footnote Disclosure and Timely
ICE           13-18                                                                       A
                         Capitalization of Leasehold Improvements


1
  Disposition Legend:
IAR        Independent Auditors’ Report dated December 11, 2013
FMC        Financial Management Comment
MW         Contributed to a Material Weakness at the Department level when combined with the results of all other components
SD         Contributed to a Significant Deficiency at the Department level when combined with the results of all other
           components
NC         Contributed to Non-Compliance with laws, regulations, contracts, and grant agreements at the Department level when
           combined with the results of all other components
NFR        Notice of Finding and Recommendation

Cross-reference to the applicable sections of the IAR:
A         Financial Reporting
B         Information Technology Controls and Financial Systems Functionality
C         Property, Plant, and Equipment
D         Budgetary Accounting
E         Entity-Level Controls
F         Liabilities




                                                             4

                            U.S. Immigration and Customs Enforcement
                            Table of Financial Management Comments
                                        September 30, 2013



G   Grants Management
H   Custodial Revenue and Drawback
I   Federal Managers’ Financial Integrity Act of 1982 (FMFIA)
J   Federal Financial Management Improvement Act of 1996 (FFMIA)
K   Single Audit Act Amendments of 1996
L   Antideficiency Act, as amended (ADA)




                                                   5

                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Appendix A
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Chief Privacy Officer

   U.S. Immigration and Customs Enforcement

   Director
   Chief Financial Officer
   Audit Liaison

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate


   �




www.oig.dhs.gov                                                            OIG-14-66
ADDITIONAL INFORMATION

To view this and any of our other reports, please visit our website at: www.oig.dhs.gov.

For further information or questions, please contact Office of Inspector General (OIG)
Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov, or follow us on
Twitter at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to:

       Department of Homeland Security 

       Office of Inspector General, Mail Stop 0305 

       Attention: Office of Investigations Hotline 

       245 Murray Drive, SW 

       Washington, DC 20528-0305 


You may also call 1(800) 323-8603 or fax the complaint directly to us at
(202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
